                                                                 Issue Date
                                                                          September 4, 2007

                                                                 Audit Report Number
                                                                              2007-DE-1007




TO:         Sherone Ivey, Associate Deputy Assistant Secretary, Policy Development, RP

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 8 AGA


SUBJECT: Sitting Bull College, Fort Yates, ND, Generally Met Requirements While
            Administering Its Tribal Colleges and Universities Program Assistance Award


                                   HIGHLIGHTS

 What We Audited and Why

             We reviewed the Tribal Colleges and Universities Program Assistance Award issued
             to Sitting Bull College (college) on September 8, 2005. Our objectives were to
             determine whether the college purchased materials to build the Family Support
             Center (center) in accordance with federal procurement requirements and whether
             materials purchased to build the center were allowable under the terms specified in
             Office of Management and Budget Circular A-21 and the Tribal Colleges and
             Universities Program Assistance Award. We audited the college because it was the
             only 2005 award recipient in our region to have completely drawn down its grant
             funds at the time of our review.


 What We Found


             With minor exceptions, the college complied with applicable requirements while
             administering this award. The college did not properly develop its contract
             agreements, include applicable U.S. Department of Housing and Urban
             Development (HUD) procurement procedures in its procurement policies, or have
           written standards of conduct governing the performance of its employees engaged in
           the award and administration of the contracts. However, these deficiencies did not
           have an adverse effect on building the center.

What We Recommend


           Based on the results of our review, we do not recommend any corrective action.



Auditee’s Response


           We provided the discussion draft of the audit report to the college on August 14,
           2007, and received its verbal response on August 28, 2007. The college agreed
           with our report.




                                            2
                        TABLE OF CONTENTS

Background and Objectives                   4

Results of Audit                            5

Scope and Methodology                       6




                                3
                     BACKGROUND AND OBJECTIVES

The Sitting Bull College (college) is a tribally controlled college on the Standing Rock
Reservation of North Dakota and South Dakota. Its offices are located at 1341 92nd Street, Fort
Yates, North Dakota. The college began as the Standing Rock Community College on
September 21, 1973. On that date, the Standing Rock Sioux Tribal Council granted a charter to
the Standing Rock Community College to operate as a postsecondary educational institution with
the authority to grant degrees at the associate level. On March 6, 1996, the Standing Rock Sioux
Tribal Council voted to amend the charter, changing the college’s name to the Sitting Bull
College. The college received approval in 2004 to begin offering bachelor of science programs
in business administration and elementary education.

On September 8, 2005, the U.S. Department of Housing and Urban Development (HUD) issued
a Tribal Colleges and Universities Program Assistance Award to the college for $600,000. The
grant agreement was for three years. The college was to use its grant to construct the Family
Support Center (center). The center was to consist of an early childhood education department,
an infirmary, and modern and safe spaces for up to 75 children.

There were three separate funding sources used to finance construction of the center. These
included the U.S. Department of Education, the tribal general fund, and HUD. The estimated
cost to build the center was more than $3 million. Of this amount, HUD funded $600,000 to be
used for the purchase of construction materials.

Our objectives were to determine whether the college purchased materials to build the center in
accordance with federal procurement requirements and whether materials purchased to build the
center were allowable under the terms specified in Office of Management and Budget Circular
A-21 and the Tribal Colleges and Universities Program Assistance Award.




                                               4
                                 RESULTS OF AUDIT

The college generally followed requirements while administering this award. More specifically,
the college

•   Did not use suspended, debarred, or otherwise ineligible contractors;
•   Conducted the procurement of the construction contracts to build the center in a competitive
     manner;
•   Properly used the bidding process in awarding the construction contracts to build the center;
•   Completed all forms and information required for Line of Credit Control System drawdowns
     and met the method of payment requirement specified in its grant;
•   Separately accounted for grant funds; and
•   Properly performed a price analysis associated with the purchasing of materials to build the
     center.

However, we identified two areas in which the college did not comply with requirements.

Contract Administration
The college did not include all required provisions in its contracts with Capital City
Construction, Incorporated; Central Mechanical, Incorporated; and Skeels Electric Company. In
addition, the college did not include applicable HUD procurement procedures in its procurement
policies. It also did not have written standards of conduct governing the performance of its
employees engaged in the award and administration of the contracts. The three contracts are
closed, and these deficiencies did not have an adverse effect on completion of the center.

Allowability of Costs
The college did not review and track the contractors’ costs to ensure that it spent the proceeds of
this award on only construction materials as was required. We are not reporting this as a finding
or requiring corrective action for the following reasons:

    •   The general construction contract was a lump sum contract,
    •   The college built the center and uses it for its intended purpose,
    •   The college entered into a contract with a local architect to provide oversight and review
        of subcontractor work before authorizing payment for materials,
    •   The review of the architect and our review of the completed building showed that the
        college used more than the $600,000 worth of HUD-authorized materials in its
        construction, and
    •   The college will not regularly administer this type of award in the future.

We discussed these deficiencies with college officials, and they will address them if they apply
for and receive another Tribal Colleges and Universities Program Assistance Award.




                                                 5
                          SCOPE AND METHODOLOGY

Our review period covered September 5, 2005, through March 1, 2007. We performed our on-
site review at the college from April 18 through April 27, 2007.

To accomplish our objectives, we obtained and reviewed applicable procurement requirements
and regulations. We obtained and reviewed portions of the HUD Office of University
Partnerships project file for the college along with the center contract files and financial records
maintained by the college. We reviewed contract documents, materials invoices, procurement
procedures, allowability of costs, and contract administration. We conducted a site visit to the
center. We also interviewed HUD and college staff.

We performed our review in accordance with generally accepted government auditing standards.




                                                  6
